Semiannual Report to Congress - October 1, 1999 through March 31, 2000
Semiannual Report to Congress
October 1, 1999 through March 31, 2000
Inspector General Letter
Agency
Profile
Office of Inspector General
Audit
Program
Investigations Program
Legislation, Regulations, and Policy
Liaison Activities
Information Required by the Act
Audit Reports by Subject Matter
Reports with Questioned Costs
Reports with Recommendations that Funds be put
to Better Use
Inspector General
National Labor
Relations Board
Washington, DC 20570
I hereby submit this Semiannual Report:
October 1, 1999 - March 31, 2000, which summarizes the major activities
and accomplishments of the Office of Inspector General (OIG) of the
National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended
(IG Act). Section 5 of the IG Act requires that the Chairman transmit this
report to the appropriate committees or subcommittees of the Congress
within 30 days of its receipt.
OIG issued two audit reports and two
inspection memoranda. In the investigations program, OIG processed 72
contacts, initiated 12 cases, and closed 15 cases. The investigations
resulted in one personnel action this period, and $1,760 in funds put to
better use. We commented on five bills, three documents related to law
enforcement authority, and two Agency regulations. Details on these
accomplishments can be found in the body of this report.
Several OIG accomplishments involved
implementation of the Government Performance and Results Act. OIG
evaluated the adequacy of NLRB plans and preparations to accurately report
on the performance measures and the achievement of Agency goals. The
Inspector General participated in a retreat for Agency management to
develop a revised Strategic Plan. The OIG Strategic Plan was also reviewed
and a decision reached to include these goals and objectives in the Agency
Strategic Plan.
An external quality control review was
conducted of OIG audit operations for a three-year period. The report
stated that a system of internal controls was in place and operating
effectively, and the audits were performed in accordance with standards.
Outreach efforts this period included
finalizing three brochures on OIG operations. We continued work on
developing a web page as part of the Agency's official web site.
I appreciate the support of all Agency
employees in achieving the accomplishments set forth in this report.
s/Jane E. Altenhofen
April 28, 2000
AGENCY PROFILE
The National Labor Relations Board (NLRB
or Agency) is an independent federal agency established in 1935 to
administer the National Labor Relations Act (NLRA). The NLRA is the
principal labor relations law of the United States, and its provisions
generally apply to private sector enterprises engaged in, or to activities
affecting, interstate commerce. NLRB jurisdiction includes health care
institutions and the U.S. Postal Service (other government entities,
railroads, and airlines are not within NLRBs jurisdiction.)
The NLRB seeks to serve the public
interest by reducing interruptions in commerce caused by industrial
strife. It does this by providing orderly processes for protecting and
implementing the respective rights of employees, employers, and unions in
their relations with one another. The NLRB has two principal functions:
(1) to determine and implement, through secret ballot elections, the free
democratic choice by employees as to whether they wish to be represented
by a union in dealing with their employers and, if so, by which union; and
(2) to prevent and remedy unlawful acts, called unfair fair labor
practices, by either employers or unions or both.
NLRB authority is divided by law and
delegation. The five-member Board primarily acts as a quasi-judicial body
in deciding cases on formal records. The General Counsel investigates and
prosecutes unfair labor practices before administrative law judges, whose
decisions may be appealed to the Board; and,
on behalf of the Board, conducts secret ballot elections to determine
whether employees wish to be represented by a labor organization.
The NLRB Board consists of the Chairman
and four members who are appointed by the President with the advice and
consent of the Senate. Board Members serve staggered terms of five years
each. The General Counsel is also appointed by the President with the
advice and consent of the Senate and serves a four-year term. The present
Board Members have served throughout this
reporting period. Sarah Fox received a recess appointment to serve as a
Board Member and was sworn in on December 17, 1999. She served under a
previous recess appointment from January 19, 1996, to November 8,
1997, when she was confirmed by the Senate for a term expiring December
16, 1999.
Fred Feinstein, the previous General
Counsel, ended his term when Congress adjourned on November 19, 1999.
Leonard Page received a recess appointment to serve as General Counsel and
was sworn in on November 29, 1999.
NLRB received an appropriation of
$206,500,000 for Fiscal Year (FY) 2000, of which $783,000 was rescinded,
to fund 1,947 full-time equivalents.
NLRB Headquarters is at 1099 14th
Street, NW Washington, DC. In addition to the Headquarters building,
employees are located in 51 field offices throughout the country. The
field offices include 33 regional offices, 16 resident offices, and 2
sub-regional offices. Three satellite offices for the Administrative Law
Judges are located in Atlanta, San Francisco, and New York.
Additional information about NLRB can be
found on the web site www.NLRB.gov.
OFFICE OF INSPECTOR GENERAL
The NLRB established the Office of
Inspector General (OIG) pursuant to the 1988 amendments to the Inspector General Act of
1978 (IG Act).
Resources
The FY 2000 OIG budget was $775,800 for
operations, of which $65,000 was for contract services. In addition to the
Inspector General, the OIG consists of a Counsel/Assistant Inspector
General for Investigations, Assistant Inspector General for Audits,
Special Agent, two Auditors, and a Staff Assistant.
Bridgette Hicks was selected for an
Auditor position and entered on duty November 14, 1999. She filled a
position that had been vacant since March 1999.
Dave Zielinski transferred to the
Department of Justice (DOJ) on March 26, 2000. During his tenure with
the Agency from May 1, 1994, he had served the OIG in the dual capacity of
Chief Counsel/Assistant Inspector General for Investigations. He
significantly contributed to the accomplishments of the OIG by providing
legal counsel and services needed to carry out the statutory
responsibilities imposed by the IG Act.
AUDIT PROGRAM
The Inspector General is to provide policy
direction for and is to conduct, supervise, and coordinate audits relating
to program operations of the Agency. We issued two audit reports and two inspection
memoranda, and successfully completed a peer review.
Reports Issued
We issued Audit Report OIG-AMR-29-00-01,
Evaluation of Time and Attendance Practices, on February 29, 2000.
At the Board's request, OIG determined whether management controls
provided reasonable assurances that time and attendance (T&A)
transactions were properly authorized and approved, and associated records
were complete and accurate. For nine Board-side offices, we found:
Employees administering leave and
attendance were not delegated responsibilities in writing, and
inappropriate employees were often administering leave and attendance.
No offices had designated timekeepers and
alternates in writing. In seven offices, the timekeeper and alternate
shared passwords. Also, passwords were
not changed periodically in seven offices.
Except for employees working a compressed
work schedule, techniques providing timekeepers reasonable assurance
regarding employee presence or absence to record T&A data for Board
employees did not exist.
Six offices did not maintain work
schedules indicating planned work times and hours per day. Two additional
offices maintained schedules, but there was no evidence of supervisor
approval.
Two offices did not prepare and maintain
necessary documentation for approval and use of annual and sick leave.
Seven offices claimed to prepare and maintain documentation, but three
offices excluded the office head and documentation was missing in all
offices for a significant portion of transactions.
Five offices tracked compensatory time and
credit hours informally rather than in the payroll system.
No offices properly approved T&A
reports. Most significantly, T&A reports were not approved in one
office; and in six offices, timekeepers, alternates, or another support
staff member approved T&A reports even though these employees were all
non-supervisory personnel specifically prohibited from approving T&A
reports.
Advances of sick leave had pervasive
problems. Advanced sick leave was not requested in accordance with Agency
policy, not approved at the designated level, and not adequately
documented.
Board-side offices did not comply with
Agency policies on authorization and approval of T&A transactions,
maintenance of T&A records, and regular reviews of procedures.
OIG made 11 recommendations. The Director
of Personnel agreed with all but one of the recommendations. OIG accepted
the alternative action proposed as it effectively implemented the
remaining recommendation.
We issued Audit Report OIG-AMR-26-00-02,
Review of Board Casehandling Timeliness on March 31,
2000. We reviewed unfair labor practice cases appealed to the Board for a
decision and determined whether: controls over case handling were
effective, the database was accurate, and Board decisions were issued in a
timely manner.
In 1991 the Board established an
unofficial time standard that set six months as the length of time a case
should be at each of three decision stages and two years as the outside
limit for a case to be at the Board. Over a ten-year period, some cases
always exceeded the established time standards.
Board Member turnover was the factor most
often identified as having a significant impact on the timeliness of case
processing. Staff reductions were also frequently cited as a reason for an
increase in pending cases and the median days to process cases.
Multiple options for expediting a case are
currently available to Board Members. These include establishing case
priorities, scheduling Board meetings, redirecting staff
assignments/duties, requesting that a case be reassigned to another Board
Member, foregoing a dissenting or separate opinion, or limiting the length
of decisions. No one option will fit every situation. Board Members
individually and as a group must assess each situation and determine what
is necessary to ensure timely action on cases.
We found that key elements in the
electronic database of cases at the Board were accurate, with few
exceptions. However, system edits were not in place to prevent the
system's acceptance of illogical data.
This report was not intended to detract
from the current Board's efforts to reduce the pending caseload,
particularly the oldest cases. The Board's accomplishment in issuing the oldest cases is
commendable, but does not negate the fact that many cases still exceed the agency standards in every stage and
overall.
The Board will most likely continue to
experience turnover and vacancies, and Board Members need to adjust how
they handle cases in order to meet timeliness standards. The Board's
accomplishments support our finding that the casehandling process
has the flexibility to allow different solutions to be applied to the
specific circumstances of each case. Further, the difficulties encountered
indicated a systemic solution cannot be dictated by policy.
We recommended that the
Executive Secretary:
Revise Board policy to
include current time standards for case processing;
Cancel unused policies
designed to promote timeliness, and implement recommendations made by
the Committee; and
Develop appropriate
edits for the electronic database.
The Executive Secretary agreed with all
three recommendations.
We issued Inspection Report No.
OIG-INS-4-00-01: Review of
NLRB's Compliance with the Federal Managers' Financial Integrity
Act of 1982 on December 21, 2000. This review covered the
fiscal year ended September 30, 1999.
We found that the evaluation of the system
of internal accounting and administrative control had been carried out in
a reasonable and prudent manner. During the review, nothing came to our
attention that would indicate that the Board did not substantially comply
with applicable laws and regulations.
We identified two actions to better
implement the requirements for financial management systems.
The Agency should prepare plans
following the Financial Management 5-Year Plan guidance.
The review methodology used by Agency
systems managers should document consideration of financial management
system requirements.
The Deputy Director of Administration, who
serves as the Chairman of both the Management Controls Planning Committee
and the Financial Planning Committee, agreed with our conclusions and
incorporated a suggestion to include results of significant reviews
conducted into a revised draft report from the Director of Administration.
We issued Inspection Report No.
OIG-INS-05-00-02, Update of Results Act Implementation on
March 16, 2000. The OIG evaluated the adequacy of NLRB plans and
preparations for measuring performance in accordance with the Government
Performance and Results Act of 1993. We specifically reviewed the Agency's
ability to accurately report on the performance measures and the
achievement of its goals to date.
We found that 16 of 48 goals were not
defined or expressed as tangible, measurable objectives. Support was
missing or not readily available for some performance measures. A revised
performance plan for FY 1999 was not prepared in a timely or clear manner.
The results in the draft performance reports did not include specific data
on some measures or comments necessary for readers to understand the data,
and most significantly, that periods of time or cases were excluded from
the results.
We made four suggestions relating to the
strategic plan. The verification and validation description, in either the
strategic plan or a supporting document, should include the following
information for each performance measure.
Assign responsibility for accumulating
and reporting the data, which may be different than who is responsible
for the accomplishment.
Define clearly the factors used in the
measurement, particularly the beginning and ending dates and any case
universe.
Identify the systems that will be used
to gather the data and ways the data will be checked for accuracy and
completeness.
Establish what and where supporting
data will be maintained for annual performance reports, and identify
where underlying support is maintained.
We also suggested that the Agency adopt a
policy to prepare an interim performance report for internal purposes.
This report would alert the Agency at six months of any problems in
gathering data, and allow adjustments in work priorities if needed to meet
goals in the Strategic Plan.
The Agency substantially revised the
strategic plan, annual performance plan, and annual performance report
based on input from the OIG.
Ongoing Audits
As of March 31, 1999, the one ongoing
audit was of NLRB's Fiscal Year 1999 Accounting and Reporting Systems. A
request for bids was issued for a Review of Information Security.
Peer Review
The IG Act provides that each Inspector
General shall comply with standards established by the Comptroller General
of the United States. One of the standards states that organizations
conducting government audits should have an external quality control
review at least once every three years.
The Inspector General arranged for the
Inspector General of the Farm Credit Administration
(FCA) to conduct an external quality review of the OIG. The FCA Inspector General completed the review in accordance with the bylaws for peer
review evaluations adopted by the inspectors
general of the designated agencies of the ECIE.
In his report, issued on March 3, 2000,
the FCA Inspector General concluded that a system of internal controls was
in place and operating effectively, and that audits performed by the OIG
and by contractors were being carried out in accordance with Government
Auditing Standards.
INVESTIGATIONS PROGRAM
The Inspector General is to provide policy
direction for and is to conduct, supervise, and coordinate investigations
relating to the programs and operations of the Agency. OIG processed 72 contacts, initiated 12 cases, and
closed 15 cases. The investigations resulted in one personnel action and
$1,760 in funds put to better use.
Case Workload
Contacts Processed
Open (10/01/99)
17
Received
72
Initiated
12
Initiated Investigation
4
Closed
15
Opened Case --Referred to Agency
6
Open (4/01/2000)
14
Non-InvestigativeDisposition
62
Software Licensing Violation. A company notified OIG that the Agency may have
been violating a licensing agreement that authorized 50 employees access
to the Daily Labor Report (DLR). Employees were allegedly
downloading issues of DLR for distribution to routing lists. The
Agency promptly notified users that DLR is copyrighted material,
and provided a summary of the restrictions in the license agreement.
Further guidance was subsequently provided to reflect permission from the
company for each authorized user to print one hard copy for routing
purposes. (OIG-I-245)
Conflict of Interest and Mismanagement. An employee notified OIG of a supervisory
employee's potential conflict of interest and other inappropriate conduct
in a regional office. OIG coordinated with the Designated Agency Ethics
Officer, who determined the relationship in question was not a conflict of
interest.
OIG determined the supervisor stored
alcoholic beverages in the office refrigerator on one occasion and shared
the beverages with staff. OIG informed the Regional Director that
government regulations do not permit alcohol to be brought onto, or
consumed within, government property except as authorized for celebratory
occasions. The Regional Director notified the supervisor of this
prohibition. OIG also informed the Regional Office that an unofficial
system for recording compensatory time was improper. (OIG-I-246)
Unsecured Privacy Act Information. An Agency employee gave a computer printout to an
OIG employee. The printout was part of several pallets of material, some
in open boxes. The pallets were stored overnight in a public area pending
pick-up by a contractor for destruction. The printout was a list of agency
employees with personal information including the social security numbers
and other data covered by the Privacy Act.
The Privacy Act Officer implemented a new
policy, effective immediately, that sensitive material must be placed in
boxes with lids, secured with tape, and stored in a secure area.
(OIG-I-261)
Travel Voucher Fraud.On February 29, 2000, OIG reported that an
Agency attorney had filed an improper claim for lodging obtained from a
family member. The attorney also participated in a similar fraud
perpetrated by his wife who was also an Agency attorney. As a result of
agreements to settle these two cases, the attorney made full restitution
of $5,311 for the false claim, and the Government agreed to not pursue
criminal or civil prosecution, with the understanding that administrative
sanctions might be taken. The Agency is currently in the process of
determining what those actions will be. (OIG-I-150)
Workers' Compensation Overpayment. As part of a continuing investigation, OIG found
that an employee improperly received compensation for a month after
returning to work, and at a higher rate than was allowed after her
dependent turned 18 years old. The Department of Labor advised the
employee in January 2000 that benefits were overpaid in the amount of
$1,760.51. (OIG-I-198)
Outside Employment and Improper Use of
Government Resources. An
allegation of misconduct by a regional employee was initially reviewed by
the Division of Operations-Management. The Division found the employee had
not received written approval for outside employment, did not comply with
Agency leave policies, and used Agency resources for personal business on
more than a de minimis basis. The employee was notified of a proposed
5-day suspension for this misconduct. OIG is investigating other aspects
of this allegation. (OIG-I-252)
Hotline
Employees and members of the public with
information on fraud, waste and abuse are encouraged to contact the OIG. A
log of telephone calls to a nationwide toll free number or the regular
office numbers and a log of information received via mail and facsimile are maintained. All information received,
regardless of the method used, is collectively referred to as HOTLINE
contacts.
The information received over the hotline
is the basis for the initial review for potential investigations. The
information is analyzed to determine if further inquiry is warranted. Most
HOTLINE contacts are calls from members of the public
seeking help on an employment related problem or issues outside OIG and/or
Agency jurisdiction. As appropriate, OIG refers these callers to: the NLRB
office; local, state, or federal agency; or private resource that is able
to provide assistance.
During this reporting period, OIG received
72 hotline contacts, of which 52 were telephone calls and 17 were in
writing. Ten contacts resulted in OIG investigations.
LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review
existing and proposed legislation and regulations relating to programs and
operations of the Agency and is to make recommendations concerning the
impact of such legislation or regulations. Similarly, we review Agency and
OIG policy. We commented on five
bills, three documents related to law enforcement authority, and two
Agency regulations.
Legislation
S. 870 IG Act Amendments of 1999. A bill to amend the IG
Act to increase the efficiency and accountability of OIGs within Federal
departments. April 22, 1999.
OIG participated in developing a letter,
dated March 21, 2000, that was sent to the Chairman of the Permanent
Subcommittee on Investigations, Senate Committee on Governmental Affairs.
The letter expressed concerns about the consolidation proposal and
provisions that did not provide comparable treatment throughout the IG
community.
S. 1707 IG Act Amendments. A bill to amend the IG Act to
provide for the appointment of inspectors general of designated federal
entities by the President. October 7, 1999.
H.R. 2013 Amendments to the IG Act of 1978 to provide for
the appointment of the Inspector General of certain federal entities by
the President of the United States. June 7, 1999.
OIG provided input to a response
addressing S. 1707 and H.R. 2013. OIG commented that increasing the number
of appointments requiring the action of both the President and the Senate
would unduly burden that system and exacerbate the current problem of
extended periods of time without an incumbent inspector general.
S. 1993 Government Information Security Act of 1999. A
bill to reform Government information security by strengthening
information security practices throughout the Federal Government. November
19, 1999.
OIG recommended two changes to the Act.
First, that inspectors general should determine which reviews to perform
and not be required to perform information system reviews annually.
Second, annual reviews, if conducted, should be performed in accordance
with generally accepted Government auditing standards.
H.R. 305 Office of Inspector General Oversight Council Act
of 1999. A bill, which was referred to the Committee on Government Reform,
to amend the IG Act of 1978 to establish an Office of Inspector General
Oversight Council. January 6, 1999.
OIG commented that the Integrity
Committee, as established by the President, performs the functions that
the bill would assign to a new entity.
Law Enforcement Authority
In late September 1999, an Arizona
District Court Judge found that Department of Transportation (DOT) OIG's
criminal investigative authority was limited to those investigative
targets who are grantees, contractors,
recipients of DOT funds, or whose employees fraudulently colluded with DOT
employees. In October 1999, OIG provided input to the DOT OIG supporting a
recommendation for DOJ to appeal the Court Order and reporting the number
and type of investigations that could be affected by the Order.
In January 2000, OIG concurred with a
legislative referral memorandum by DOJ transmitting a draft bill to amend
the IG Act. This bill would grant agents of 23 presidentially-appointed
inspectors general the authority to carry firearms, make warrantless
arrests, and seek and execute warrants, without prior deputation by the
DOJ. The bill would retain some DOJ oversight of the exercise of these
additional powers.
In March 2000, the Inspector General
participated in signing a memorandum from the inspector general community
to the Chairman of the Senate Committee on Governmental Affairs. This
memorandum urged the Chairman to favorably
consider the proposed legislation.
Public Law 104-132, Antiterrorism and
Effective Death Penalty Act of 1996, provided for the establishment of a
Commission on the Advancement of Federal Law Enforcement. The Commission
was asked to report to Congress and the American people on a wide variety
of matters related to Federal law enforcement. The Commission's report was
issued in January 2000 and suggested that law enforcement authority be
removed from the OIGs and assigned to other federal law enforcement
agencies, such as the Federal Bureau of Investigation and Customs Service.
OIG participated in developing the
response by the inspector general community that categorically disagreed
with the recommendations of the Commission as they apply to the inspector
general community.
Regulations
The Counsel to the Inspector General was a
member of the Rules Revision Committee which develops changes to Agency
procedural regulations. The Committee continued to work on proposed
changes to existing Agency regulations developed in the prior period. The
changes implement the Freedom of Information Act (FOIA) mandated
requirements for electronic communications and clarify how FOIA requests
to the Inspector General for OIG documents are processed.
In January 2000, OIG reviewed a draft
Notice of Proposed Rulemaking distributed to Committee members for initial
review. The draft proposal was to amend the rules to implement a
requirement that all interest awarded on backpay and other monetary awards
be compounded daily. OIG concurred with the draft Notice.
OIG Policy
OIG continued to coordinate with the
Agency records management officer and the National Archives and Records
Administration (NARA) on a records schedule which authorizes the disposal
of OIG files.
We initiated a major review of OIG
investigative files in accordance with the revised schedule and Agency
policy. A NARA official reviewed some records, tentatively identified to
be permanently retained, and confirmed that the records met the draft
criteria.
LIAISON ACTIVITIES
The Inspector General is to recommend
policies for, and is to conduct, supervise, or coordinate relationships
between the Agency and other Federal agencies, State and local
governmental agencies, and nongovernmental entities. The Inspector General
is to give particular regard to the activities of the Comptroller General
of the United States, as head of the General Accounting Office (GAO).
Similarly, we encourage OIG staff members to participate in Agency
programs and activities. OIG staff
members are active in the inspector general community, agency activities,
and select non-governmental entities. OIG met with GAO staff. The OIG
Strategic Plan was revised.
Inspector General Community
The Inspector General is a member of the
Executive Council on Integrity and Efficiency (ECIE), which consists
primarily of the inspectors general at the Federal entities designated in
the 1988 amendments to the IG Act. She participated in activities
sponsored by the President's Council on Integrity and Efficiency (PCIE),
which consists primarily of the Presidentially-appointed inspectors
general.
The Inspector General attended the ECIE/PCIE
conference in March 2000. She was a member of an ECIE ad hoc committee
addressing issues on auditor independence.
The Counsel participated fully in the
Council of Counsels to Inspectors General and the National Association of
Bar Counsel. As Assistant Inspector General for Investigations, he was
active in the Association of Inspectors General for Investigations, and
was one of two ECIE representatives on the PCIE Investigations Advisory
Subcommittee of the Investigations Committee. He was the chair of a
working group on developing the Qualitative Assessment Process for
Investigations, a process similar to audit peer review. Additionally, he
was an instructor for the Government Training Institute.
The Assistant Inspector General for Audits
participated in the PCIE Government Performance and Results Act Group and
the Office of Inspectors General Statistical Sampling Work Group.
Agency Activities
The Assistant Inspector General for Audits
attended the FY 1999 Financial Planning Committee (FPC) meeting in
December 1999. The FPC consists of Agency financial and program managers
and meets annually to discuss financial system planning and management
techniques.
An OIG Auditor is the NLRB Recreation and
Welfare Association Treasurer. The Association sponsors a variety of
social and philanthropic activities for Agency employees. In addition to
serving as the financial administrator, he helped coordinate activities
including receptions for the kick-off of the Combined Federal Campaign,
the new General Counsel, and a Cherry Blossom marathon.
Non-governmental Entities
The OIG Special Agent, as the Deputy
Assistant Inspector General for Investigations, is the principal liaison
officer to the federal law enforcement community. He is a member of the
Liaison Officers Association, and currently serves on its executive board.
The Association is composed of designated liaison officers of all federal
law enforcement agencies as well as foreign police attaches. He is a
member of the working group on Affirmative Civil Enforcement organized by
the U. S. Attorneys Office in Baltimore.
General Accounting Office
The IG Act states that each inspector
general shall give particular regard to the activities of the Comptroller
General of the United States with a view toward avoiding duplication and
ensuring effective coordination and cooperation. In March 2000, the
Inspector General and Assistant Inspector General for Audits met with GAO
Acting Associate Director of Health, Education, and Human Services
Division, who has responsibility for audits of NLRB programs and
activities.
The Inspector General requested that the
office be informed of GAO reviews involving NLRB. GAO has one ongoing
review which is utilizing NLRB information. The objective of the review is
to determine the extent to which businesses with labor unrest are being
inspected by the Occupational Safety and Health Administration.
Strategic Plan
As recommended in a 1992 GAO report, OIG
developed a 5-year Strategic Plan for FYs 1994 - 1999. Subsequent feedback
from the Office of Management and Budget and congressional committees
indicated that an OIG could be part of the Agency strategic plan. The
Agency updated its Strategic Plan this
period, and the Inspector General decided
to include the OIG in the Agency plan. The draft Agency Strategic Plan for
FYs 2000 - 2006 includes a chapter for OIG.
In addition, the inspector general
community initiated a project to develop a strategic plan. The Inspector
General participated in the process to develop the plan and intends to
adopt the final plan.
INFORMATION REQUIRED BY THE ACT
Certain information and statistics based
on the activities accomplished during this period are required by section
5(a) of the IG Act to be included in the semiannual reports. These are set
forth below:
Section 5(a)
(1),(2),(7) OIG did not identify any
significant problems, abuses or deficiencies relating to the
administration of programs. For the purpose of this section, we used the definition of significant
as set forth in the Federal Managers' Financial Integrity Act.
(3) Corrective action has been completed
on all significant recommendations which were described in the previous
semiannual reports.
(4) No matters were referred to
prosecutorial authorities. There were no prosecutions or convictions.
(5) No reports were made to the Chairman
that information or assistance requested by the Inspector General was
unreasonably refused or not provided.
(6) A listing by subject
matter is located on page 21.
(8),(9) Two audit reports were issued
during this period; the reports had no recommendations on questioned costs
or funds that could be put to better use. See Tables 1 and 2.
(10) There are no audit reports issued
before the commencement of the reporting period for which no management
decision has been made by the end of the reporting period.
(11) No significant revised management
decisions were made during the reporting period.
(12) There were no significant management
decisions with which I am in disagreement.
AUDIT REPORTS BY SUBJECT MATTER
Report Title and Number
Questioned Costs
Unsupported Costs
Ineligible Costs
Funds To Be Put To Better
Use
ADMINISTRATION
Evaluation of Time and Attendance
Practices, OIG-AMR-29-00-01
0
0
0
0
BOARD ADJUDICATION
Review of Board Casehandling
Timeliness, OIG-AMR-26-00-02
0
0
0
0
Table 1    REPORTS WITH
QUESTIONED COSTS
Dollar Value
Number of Reports
Questioned Costs
Unsupported Costs
A. For which no management
decision has been made
by the commencement
of the period
0
0
0
B. Which were issued during the
reporting period
0
0
0
Subtotals (A+B)
0
0
0
C. For which a management decision
was made during the reporting period
0
0
0
(i) Dollar value of disallowed
costs
0
0
0
(ii) Dollar value of costs not
disallowed
0
0
0
D. For which no management
decision has been made
by the end
of the reporting period
0
0
0
Reports for which no management decision was
made within six months
of issuance
0
0
0
Table 2    REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Number of Reports
Questioned Costs
A. For which no management decision
has been made by the commencement of the period
0
0
B. Which were issued during the
reporting period
0
0
Subtotals (A+B)
0
0
C. For which a management decision
was made during the reporting period
0
0
(i) Dollar value of disallowed
costs
0
0
(ii) Dollar value of costs not
disallowed
0
0
D. For which no management
decision has been made
by the end
of the reporting period
0
0
Reports for which no management decision was
made within six months
of issuance
0
0